               Oversight of the Interagency Agreement Has
              Improved, but Additional Actions Are Needed
                to Ensure Timely, Accurate, and Complete
                      Form 5500 Return Information

                                 September 2004

                       Reference Number: 2004-10-178




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION


                                                   September 23, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Oversight of the Interagency Agreement Has
                                    Improved, but Additional Actions Are Needed to Ensure Timely,
                                    Accurate, and Complete Form 5500 Return Information
                                    (Audit # 200410007)


      This report presents the results of our review of the Tax Exempt and Government
      Entities (TE/GE) Division’s oversight of the interagency agreement1 between the
      Internal Revenue Service (IRS) and the Department of Labor (DOL) to process the
      Annual Return/Report of Employee Benefit Plan (Form 5500) return information. The
      TE/GE Division’s Employee Plans Examination program uses this information to ensure
      employee benefit plans are in compliance with applicable provisions of the Internal
      Revenue Code. The overall objectives of this review were to determine whether the
      terms of the interagency agreement provided reasonable assurance that the TE/GE
      Division received timely, accurate, and complete Form 5500 return information, and
      whether the TE/GE Division provided adequate oversight to ensure the terms of the
      interagency agreement were met.
      The Employee Retirement Income Security Act of 1974 (ERISA)2 requires plan
      administrators and sponsors of employee benefit plans to submit a Form 5500. On
      September 28, 1998, the DOL entered into a contract with a private contractor to
      process Form 5500 returns through the ERISA Filing Acceptance System (EFAST) and
      to provide four Federal Government agencies3 with the Form 5500 return information.

      1
        A written agreement entered into between two Federal Government agencies, which specifies the goods to be
      furnished or tasks to be accomplished by one agency in support of the other agency.
      2
        Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
      29 U.S.C., and 42 U.S.C.).
      3
        The four Federal Government agencies are the Department of Labor, the Internal Revenue Service, the Social
      Security Administration, and the Pension Benefit Guaranty Corporation.
                                            2

Under the terms of the DOL EFAST contract, the DOL has the overall responsibility of
providing administrative oversight for the processing of Form 5500 returns. On June 15,
2000, the IRS and the DOL established an interagency agreement that provided
guidelines for both the DOL and the IRS on the basic operation, support, and sharing of
costs for the receipt and processing of Form 5500 returns through the EFAST.
Under the terms of the interagency agreement and the DOL EFAST contract, the IRS is
considered to be an end user of the EFAST and is limited to receiving information from
the processed Form 5500 returns. However, the TE/GE Division is still responsible for
ensuring its programs receive timely, accurate, and complete Form 5500 return
information.
In summary, TE/GE Division management has taken several actions to improve its
oversight of the interagency agreement. This improved oversight has enabled the
TE/GE Division to more closely monitor the processing of Form 5500 return information
and to establish open lines of communication to discuss concerns, both within the
TE/GE Division and with the DOL. However, additional improvements are needed to
provide the TE/GE Division reasonable assurance that timely, accurate, and complete
Form 5500 return information is received.
The TE/GE Division does not perform verifications and independent reports are not
provided by the DOL to determine if the DOL contractor is meeting timeliness
standards. In addition, the TE/GE Division does not perform verifications and
independent confirmation is not provided by the DOL to determine whether the
Form 5500 return information received from the DOL contractor is meeting accuracy
and completeness standards. Oversight processes are also incomplete since the
TE/GE Division performs only a limited review and incomplete reports are received from
the DOL for monitoring the funding and costs allocated to the IRS under the interagency
agreement and the DOL EFAST contract. Effective oversight currently cannot be
provided because either there is no provision requiring the information to be provided to
the TE/GE Division in the interagency agreement and the DOL EFAST contract, or the
provisions exist but the TE/GE Division is not following up on the provisions.
We recommended the Director, Business Systems Planning, finalize the report format to
verify the timeliness of Form 5500 returns processed and implement oversight controls
to ensure records are maintained and the allocated EFAST costs are commensurate
with the services provided for the Form 5500 return processing. We also recommended
the Director, Employee Plans, and the Director, Business Systems Planning, work
together to complete the effort of reviewing the terms of the current interagency
agreement to identify opportunities to improve the TE/GE Division’s oversight,
determine whether additional controls or tools are needed to effectively monitor the
processing of returns and to verify costs, and determine what terms need to be included
in the future interagency agreement and the DOL EFAST contract.
Management’s Response: TE/GE Division management agreed with the findings and
recommendations in the report. Specifically, TE/GE Division management will submit a
request to develop a timeliness report based on TE/GE Division requirements and will
                                           3

finalize with the DOL a reporting cycle to receive copies of receipts and acceptance
records of vendor-provided services and costs pursuant to Section 9, General
Provisions, of the interagency agreement. In addition, the TE/GE Division Employee
Plans and Business Systems Planning functions will identify opportunities in the current
interagency agreement and will identify any additional controls, tools, and processes to
monitor returns processing and costs of EFAST operations, under the current
interagency framework and any future agreement. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
            Oversight of the Interagency Agreement Has Improved, but Additional
               Actions Are Needed to Ensure Timely, Accurate, and Complete
                                 Form 5500 Return Information




                                                  Table of Contents


Background ............................................................................................... Page 1
The Tax Exempt and Government Entities Division Has Improved
Its Oversight of the Interagency Agreement………………………………….Page 3
Additional Oversight Improvements Are Needed to Provide
Reasonable Assurance of Timely, Accurate, and Complete
Form 5500 Return Information .................................................................. Page 7
         Recommendation 1: .......................................................................Page 13
         Recommendation 2: .......................................................................Page 14
         Recommendation 3: .......................................................................Page 15

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Management’s Response to the Draft Report .................... Page 20
        Oversight of the Interagency Agreement Has Improved, but Additional
           Actions Are Needed to Ensure Timely, Accurate, and Complete
                             Form 5500 Return Information

                                The Employee Retirement Income Security Act of 1974
Background
                                (ERISA)1 requires plan administrators and sponsors of
                                employee benefit plans to submit an Annual Return/Report
                                of Employee Benefit Plan (Form 5500). Four Federal
                                Government agencies2 use this information to carry out the
                                provisions of the ERISA and other statutes applicable to
                                their agencies. The Internal Revenue Service (IRS) Tax
                                Exempt and Government Entities (TE/GE) Division,
                                Employee Plans (EP) Examination program uses the
                                Form 5500 return information as part of its program to
                                ensure employee benefit plans are in compliance with
                                applicable provisions of the Internal Revenue Code (I.R.C.).
                                On September 28, 1998, the Department of Labor (DOL)
                                entered into a contract with a private contractor to process
                                Form 5500 returns through the ERISA Filing Acceptance
                                System (EFAST)3 and to provide the four Federal
                                Government agencies with the Form 5500 return
                                information. Under the terms of the DOL EFAST contract,
                                the DOL has the overall responsibility of providing
                                administrative oversight for the processing of Form 5500
                                returns. The DOL EFAST contract includes a base period
                                and subsequent option periods,4 which the DOL has sole
                                discretion to exercise. The current DOL EFAST contract is
                                effective through June 30, 2005. However, the DOL and the
                                private contractor are presently negotiating extending the
                                contract 2 additional processing years, which will extend the
                                effective date of the DOL EFAST contract through
                                June 30, 2007.




                                1
                                  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered
                                sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
                                2
                                  The four Federal Government agencies are the Department of Labor,
                                the Internal Revenue Service, the Social Security Administration, and
                                the Pension Benefit Guaranty Corporation.
                                3
                                  The EFAST is an automated system used by the DOL contractor to
                                accept, process, and store Form 5500 returns.
                                4
                                  Option periods run for 12 months during the period July 1 through
                                June 30, with the exception of Option Period 1, which ran during the
                                period September 16, 1999 (the start of the DOL EFAST contract),
                                through June 30, 2000.
                                                                                                Page 1
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        On June 15, 2000, the IRS and the DOL established an
                        interagency agreement5 regarding the processing of
                        Form 5500 returns through the EFAST. The interagency
                        agreement establishes guidelines for both the DOL and the
                        IRS on the basic operation, support, and sharing of costs for
                        the receipt and processing of Form 5500 returns through the
                        EFAST. Prior to the establishment of the interagency
                        agreement, the IRS was responsible for processing the
                        Form 5500 returns. Currently, under the terms of the
                        interagency agreement and the DOL EFAST contract, the
                        IRS is considered to be an end user of the EFAST and is
                        limited to receiving information from the processed
                        Form 5500 returns. Nonetheless, the TE/GE Division is still
                        responsible for ensuring its programs receive timely,
                        accurate, and complete Form 5500 return information. The
                        EP Examination program relies on Form 5500 return
                        information to be able to accomplish its program objectives.
                        In August 2000, the DOL contractor began processing the
                        Form 5500 returns through the EFAST. The output goals of
                        the EFAST are to produce data files similar to those
                        produced in the IRS pipeline processing system, with the
                        additional requirement of delivering complete machine
                        readable data from the Form 5500 returns in a format that is
                        compatible with the IRS’ Employee Plans Master File
                        (EPMF).6 The EPMF contains key information from the
                        Form 5500 returns for all benefit plans filed by plan
                        administrators and sponsors.
                        The DOL must ensure its contractor:
                        •   Receives the Form 5500 returns.
                        •   Processes the data from the Form 5500 returns into a
                            machine-readable format.
                        •   Conducts specified edit tests and corresponds with filers
                            whose returns fails one or more edit tests.
                        •   Attempts to perfect the return data using filer responses.

                        5
                          A written agreement entered into between two Federal Government
                        agencies, which specifies the goods to be furnished or tasks to be
                        accomplished by one agency in support of the other agency.
                        6
                          A database that maintains account information for employee plans.
                                                                                       Page 2
           Oversight of the Interagency Agreement Has Improved, but Additional
              Actions Are Needed to Ensure Timely, Accurate, and Complete
                                Form 5500 Return Information

                                   •   Provides the Form 5500 return information to the IRS in
                                       a specific data structure.
                                   The TE/GE Division EFAST Project Manager serves as the
                                   contact person for all IRS personnel and is responsible for
                                   all IRS activities as they relate to the interagency agreement.
                                   The primary duties of the EFAST Project Manager include
                                   providing technical direction to TE/GE Division personnel,
                                   monitoring the processing of Form 5500 returns, and
                                   tracking costs outlined in the interagency agreement as they
                                   are incurred.
                                   This audit was conducted in accordance with Government
                                   Auditing Standards at the IRS National Headquarters
                                   Business Systems Planning and Employee Plans Program
                                   Offices in Washington, D.C., during the period January
                                   through June 2004. Detailed information on our audit
                                   objectives, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   TE/GE Division management has taken several actions to
The Tax Exempt and
                                   improve its oversight of the interagency agreement. This
Government Entities Division Has
                                   improved oversight has enabled the TE/GE Division to
Improved Its Oversight of the
                                   more closely monitor the processing of Form 5500 return
Interagency Agreement
                                   information and to establish open lines of communication to
                                   discuss concerns, both within the TE/GE Division and with
                                   the DOL. The current level of oversight is a significant
                                   improvement over that reported in a prior Treasury
                                   Inspector General for Tax Administration audit,7 in which it
                                   was noted that TE/GE Division management did not take an
                                   active role to determine the cause of Form 5500 return
                                   processing delays. The actions taken by the TE/GE
                                   Division management include:
                                   •   Changing the EFAST Project Manager position from a
                                       secondary duty to a full-time position and selecting a
                                       new project manager to coordinate oversight.



                                   7
                                    Improvements Are Needed to Ensure That Employee Plans Return
                                   Information Is Timely Received and That Returns Are Properly
                                   Processed and Adequately Safeguarded (Reference
                                   Number 2002-10-098, dated June 2002).
                                                                                             Page 3
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        •   Creating and filling an EFAST II Project Manager
                            position to coordinate with the EFAST Project Manager
                            and to start determining the issues associated with the
                            next interagency agreement.
                        Establishing a full-time EFAST Project Manager to
                        coordinate oversight of the interagency agreement
                        In August 2003, TE/GE Division management informed us
                        they had established the EFAST Project Manager as a
                        full-time position within the TE/GE Division’s Business
                        Systems Planning function and filled the position. The prior
                        EFAST Project Manager was a TE/GE Division program
                        manager whose primary responsibility was the management
                        of another IRS program, with oversight of the interagency
                        agreement being a secondary responsibility. As a result,
                        TE/GE Division management believed the prior project
                        manager was not able to devote sufficient time and
                        oversight to the interagency agreement.
                        Although the new EFAST Project Manager is in the process
                        of learning his responsibilities, he has taken several actions
                        to improve oversight of the interagency agreement and the
                        DOL EFAST contract. These actions include:
                        •   Establishing effective lines of communication with the
                            TE/GE Division programs that use the Form 5500 return
                            information, the DOL, and the DOL contractor.
                        •   Initiating a review of the DOL EFAST contract to
                            evaluate whether contracted administrative services,
                            such as quality assurance reviews, are received.
                        Establishing effective lines of communication
                        The new EFAST Project Manager conducts monthly
                        meetings with TE/GE Division program personnel to
                        discuss the status of issues relating to the processing of
                        Form 5500 returns and assess whether their needs are being
                        met. Also, TE/GE Division program personnel stated that,
                        if issues or concerns arise before the next meeting, they are
                        forwarded to the new EFAST Project Manager as soon as
                        they are identified and actions needed to resolve them are
                        quickly initiated.


                                                                               Page 4
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        An open line of communication between personnel in the
                        DOL and the new EFAST Project Manager has been
                        established to ensure issues relating to the processing of
                        Form 5500 returns are surfaced. For example, the
                        TE/GE Processing Center Programs personnel in
                        Ogden, Utah, needed to know what extension forms were
                        processed by the DOL contractor. The new EFAST Project
                        Manager referred the issue and the answer was provided
                        within a week. The new EFAST Project Manager meets
                        monthly with DOL personnel to discuss the status of
                        processing and to surface issues relating to the processing of
                        Form 5500 returns. The EFAST Project Manager also
                        attends a quarterly status meeting with the DOL and its
                        contractor. These meetings provide another opportunity to
                        discuss the status of open issues and to elevate new issues.
                        Reviewing the DOL EFAST contract
                        The EFAST Project Manager recently initiated a review of
                        the terms of the DOL EFAST contract. This is an important
                        process that should enable the TE/GE Division to identify
                        opportunities to improve its oversight of the interagency
                        agreement. We also reviewed the interagency agreement
                        and the DOL EFAST contract to determine if we could
                        identify any provisions that would be beneficial for the
                        TE/GE Division’s oversight.
                        While the interagency agreement is the primary means used
                        by the IRS and DOL to define the services provided, we
                        determined the DOL EFAST contract already includes
                        provisions for administrative services8 that would benefit the
                        IRS and would enable the TE/GE Division to avoid some of
                        the costs for providing oversight. For example, one
                        administrative service included in the terms of the
                        DOL EFAST contract, but not the interagency agreement, is
                        a provision that the DOL must ensure Processing
                        Compliance Reviews are performed quarterly. Since the
                        DOL is not required to provide copies of these Reviews to
                        the IRS, the TE/GE Division is not receiving the benefit of

                        8
                          For this interagency agreement, administrative services include the
                        information needed to measure the processing of Form 5500 returns
                        against performance standards for timeliness, accuracy, and
                        completeness.
                                                                                         Page 5
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        having independent reports to monitor whether the
                        DOL contractor is processing Form 5500 returns in
                        accordance with the performance standards.9
                        Creating a full-time EFAST II Project Manager position
                        to coordinate issues associated with the next interagency
                        agreement
                        TE/GE Division management initiated actions to begin
                        developing the requirements and planning for the next
                        interagency agreement. These early actions should enable
                        them to ensure the necessary provisions for providing
                        effective oversight of the Form 5500 returns processing are
                        included in the interagency agreement. Specifically, in
                        October 2003, TE/GE Division management selected an
                        EFAST II Project Manager within the EP function to serve
                        as the contact for the next interagency agreement. The
                        Project Manager is also working on the statement of work10
                        to define future EFAST requirements.
                        To obtain knowledge of the EFAST requirements and the
                        interagency agreement, the EFAST II Project Manager
                        works closely with the EFAST Project Manager to identify
                        issues that will need to be addressed during the development
                        of a new interagency agreement. In addition, both the
                        EFAST and the EFAST II Project Managers attend meetings
                        and conferences with the TE/GE Division and the DOL
                        regarding the existing interagency agreement and the DOL
                        EFAST contract. Creating the EFAST II Project Manager
                        position independent of the existing project enables the
                        EFAST II Project Manager to not only concentrate primarily
                        on the next agreement but also to provide additional
                        oversight of the current interagency agreement when
                        needed.




                        9
                          See report section entitled, “Additional Oversight Improvements Are
                        Needed to Provide Reasonable Assurance of Timely, Accurate, and
                        Complete Form 5500 Return Information” for additional information
                        concerning these Processing Compliance Reviews.
                        10
                           A narrative description of the products or services required to be
                        provided under contract.
                                                                                       Page 6
           Oversight of the Interagency Agreement Has Improved, but Additional
              Actions Are Needed to Ensure Timely, Accurate, and Complete
                                Form 5500 Return Information

                                   Although TE/GE Division management has taken actions to
Additional Oversight
                                   improve oversight of the interagency agreement, additional
Improvements Are Needed to
                                   improvements are needed to provide the TE/GE Division
Provide Reasonable Assurance of
                                   with reasonable assurance that timely, accurate, and
Timely, Accurate, and Complete
                                   complete Form 5500 return information is received. For
Form 5500 Return Information
                                   example, EP Examination program management believes
                                   they have received sufficient Form 5500 return information,
                                   based on estimates of filing receipts, to enable
                                   EP Examination program personnel to perform studies and
                                   conduct necessary examinations. However,
                                   TE/GE Division management does not know if its programs
                                   are receiving accurate and complete Form 5500 return
                                   information or whether the DOL contractor is processing the
                                   returns within the time periods specified in the DOL EFAST
                                   contract. A timely, accurate, and complete universe of
                                   pension filings is needed to ensure the TE/GE Division is
                                   reviewing representative samples when determining if
                                   employee benefit plans are in compliance with the I.R.C.
                                   We determined the following oversight controls were not
                                   being used:
                                   •    The TE/GE Division does not perform verifications and
                                        independent reports are not provided by the DOL to
                                        determine if the DOL contractor is meeting timeliness
                                        standards.
                                   •    The TE/GE Division does not perform verifications and
                                        independent confirmation is not provided by the DOL to
                                        determine whether the Form 5500 return information
                                        received from the DOL contractor is meeting accuracy
                                        and completeness standards.11
                                   •    The TE/GE Division performs only a limited review,
                                        and incomplete reports are received from the DOL for
                                        monitoring the funding and costs allocated to the IRS
                                        under the interagency agreement and the DOL EFAST
                                        contract.
                                   Effective oversight currently cannot be provided because
                                   either there is no provision requiring the information to be
                                   provided to the TE/GE Division in the interagency

                                   11
                                     Complete Form 5500 return information means information from all
                                   required data fields has been captured from the return.
                                                                                               Page 7
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        agreement and the DOL EFAST contract, or the provisions
                        exist but the TE/GE Division is not following up on the
                        provisions. As a result, the TE/GE Division cannot be
                        assured it is receiving timely, accurate, and complete
                        Form 5500 return information needed to monitor the various
                        programs using this return information.
                        No verification to show whether the Form 5500 returns
                        are being timely processed
                        The DOL EFAST contract requires all Form 5500 returns to
                        be processed within specific time periods. However, the
                        terms of the interagency agreement and the DOL EFAST
                        contract do not provide for any means to monitor the
                        processing time periods. Moreover, because the IRS is only
                        an end user of the EFAST (it receives the return information
                        but is not involved with processing the returns), it cannot
                        work directly with the DOL contractor to ensure the time
                        standards are met. In addition, the TE/GE Division does not
                        perform verifications and the DOL does not provide
                        independent reports to measure its contractor’s compliance
                        with the time standards. The primary report used by
                        TE/GE Division management to monitor Form 5500 return
                        processing is a weekly EFAST Production Report.12
                        However, this Report shows only the volume of returns
                        processed each week not the length of time to process the
                        returns.
                        The TE/GE Division can improve its assurances for timely
                        processing by finalizing the timeliness report format under
                        development. Since November 2003, the EFAST Project
                        Manager has been working with a computer specialist in the
                        Business Systems Planning function to develop a report
                        format that measures the DOL contractor’s processing of
                        Form 5500 returns against the EFAST timeliness
                        performance standards. However, the report format has not
                        been finalized because there are several timeliness
                        performance standards, depending on the condition that
                        surrounds the Form 5500 return filing. Table 1 shows the


                        12
                          The title of the weekly EFAST Production Report is the
                        EFAST Posted “Completed Processing” Original and Amended Returns
                        (Analysis of File 260-35-11).
                                                                                 Page 8
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        different EFAST timeliness performance standards used by
                        the DOL contractor to process Form 5500 returns.
                                Table 1: EFAST Timeliness Performance Standards
                                      Used to Process All Form 5500 Returns

                              EFAST Timeliness                   Peak            Non-Peak
                                Performance                    Processing        Processing
                                 Standards13                    Period14          Period15
                        No correspondence and no                 90 Days           60 Days
                        Manual Entity Review
                        Station (MERS) processing.16
                        No correspondence but                   100 Days           70 Days
                        subject to MERS processing.
                        One round of                            150 Days          120 Days
                        correspondence but no
                        MERS processing.
                        One round of                            160 Days          130 Days
                        correspondence and subject
                        to MERS processing.
                        Two rounds of                           210 Days          180 Days
                        correspondence but no
                        MERS processing.
                        Two rounds of                           220 Days          190 Days
                        correspondence and subject
                        to MERS processing.
                        Source: Table C.3.a - EFAST Timeliness Performance Standards in the
                        DOL EFAST contract.




                        13
                           Within the stated number of calendar days, 99.9 percent of all
                        Form 5500 returns must be processed and the return structured data
                        records posted to the DOL contractor’s EFAST Main File.
                        14
                           Peak processing is during the period July 1 through November 15.
                        15
                           Nonpeak processing is during the period November 16 through
                        June 30.
                        16
                           Form 5500 returns may be subject to MERS processing. The
                        objective of the MERS processing is to avert errors in Form 5500 return
                        structure data caused by slight differences in spelling or abbreviation of
                        the plan and sponsor name fields.
                                                                                          Page 9
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        If 2 rounds of correspondence and MERS processing are
                        required during the peak processing period, the
                        DOL contractor may take over 7 months to process a return
                        and still meet the time standard in the DOL EFAST
                        contract. If some of the returns requiring 2 rounds of
                        correspondence are significantly delayed, it could affect the
                        initiatives of the TE/GE Division programs. For example,
                        the EP Examination program may not have a sufficient
                        population of these returns from which to conduct
                        compliance studies and select returns for examination. To
                        ensure the studies use representative samples, the EP
                        Examination program needs reasonable assurance that
                        Form 5500 return information has been timely received.
                        Confirming the receipt of accurate and complete
                        Form 5500 return information
                        The TE/GE Division does not have sufficient assurances
                        that accurate and complete Form 5500 return information is
                        being received from the DOL contractor. The DOL EFAST
                        contract establishes accuracy and completeness standards
                        for processing Form 5500 returns; however, the interagency
                        agreement does not include provisions that would enable the
                        TE/GE Division to monitor reports or other information to
                        ensure the DOL contractor is complying with this
                        performance standard.
                        The contract between the DOL and its contractor does
                        include a provision requiring the DOL to ensure a
                        Processing Compliance Review is performed quarterly. The
                        objective of these Reviews is to provide an independent
                        evaluation of whether the DOL contractor’s processing of
                        Form 5500 returns is in accordance with all EFAST
                        performance standards. These Reviews would provide
                        TE/GE Division management with some assurance that
                        timely, accurate, and complete return information had been
                        received. However, neither the interagency agreement nor
                        the DOL EFAST contract requires the DOL to provide the
                        TE/GE Division with the results of these Reviews.
                        In addition, the TE/GE Division has not requested the
                        results of the Processing Compliance Reviews because they
                        did not know of this requirement. Our inquiries found that
                        the last quarterly Processing Compliance Review was issued
                                                                              Page 10
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        in April 2002, and TE/GE Division management did not
                        know why the Reviews had stopped. TE/GE Division
                        management may have followed up on these Reviews
                        sooner if the terms of the interagency agreement and the
                        DOL EFAST contract required the DOL to provide a copy
                        of the results of these administrative tasks to the
                        TE/GE Division.
                        The DOL EFAST contract outlines other administrative
                        tasks that may assist the TE/GE Division in providing
                        oversight. For example, the DOL EFAST contract requires
                        the DOL contractor to submit weekly production and
                        monthly progress reports to the DOL. These reports could
                        assist the TE/GE Division in tracking the flow of returns
                        through the DOL contractor’s EFAST system and in
                        identifying any significant delays. However, the
                        interagency agreement does not require the DOL to provide
                        these reports to the TE/GE Division. Improving the
                        interagency agreement to include sharing the results of these
                        administrative tasks would provide greater assurance the
                        TE/GE Division is receiving accurate and complete
                        Form 5500 return information.
                        Improving processes for monitoring the funding and
                        costs to the IRS under the interagency agreement
                        The TE/GE Division needs to improve its oversight process
                        used to monitor the funding and costs allocated to process
                        the Form 5500 returns. Under the terms of the interagency
                        agreement, the DOL should provide the EFAST Project
                        Manager costs and financial reports that detail the costs
                        chargeable to the IRS no later than 45 calendar days after
                        the close of each month. These costs include amounts paid
                        by the DOL to its contractor to process the Form 5500
                        returns and amounts incurred by the DOL to administer the
                        DOL EFAST contract.
                        Table 2 shows the TE/GE Division’s funding and costs for
                        the processing of Form 5500 returns during Option
                        Periods II through V.17


                        17
                          Option Period V is during the period July 1, 2003, through
                        June 30, 2004.
                                                                                       Page 11
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                                 Table 2: TE/GE Division’s Funding and Chargeable
                                    EFAST Costs – Option Periods II Through V

                                                       Funding for          Chargeable
                                EFAST                    EFAST               EFAST
                             Option Periods            Processing             Costs18
                             Option Period II          $7,300,000            $6,508,488
                             Option Period III         $9,323,833            $9,122,917
                             Option Period IV          $7,312,000            $8,820,147
                             Option Period V           $8,300,000            $9,100,919
                                  Totals               $32,235,833          $33,552,471
                        Source: IRS Funding Level Requirements.

                        The Federal Acquisition Regulation19 allows agencies that
                        provide services to another agency to request advance
                        payment for all or part of the estimated costs for furnishing
                        the services. In addition, IRS policy and procedures
                        recommend that, given the special nature of interagency
                        agreements, additional oversight and monitoring of the
                        funds is necessary to ensure the receipt of required services.
                        For the TE/GE Division, the EFAST Project Manager is
                        responsible for monitoring the funding of and EFAST costs
                        incurred for the processing of Form 5500 returns. IRS
                        procedures require that records showing the receipt and
                        acceptance of services be maintained to effectively monitor
                        funds and that the allocated EFAST costs be verified as
                        appropriate and consistent with the services received.
                        The funding arrangements in the interagency agreement
                        include the IRS transferring its share of estimated costs for
                        processing the Form 5500 return information before the




                        18
                           The chargeable EFAST costs in Option Periods II through IV are
                        actual costs, and the chargeable EFAST costs in Option Period V
                        include actual and projected costs. All EFAST costs in Option Period I
                        were borne solely by the DOL.
                        19
                           Federal Acquisition Regulation, 48 C.F.R. pt 1-53 (2002).
                                                                                      Page 12
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        returns are processed in each option period.20 However, the
                        EFAST Project Manager has not been receiving the monthly
                        costs and financial reports. In addition, the DOL provides
                        the TE/GE Division a nonitemized quarterly invoice for
                        only a small fraction of the total costs. This nonitemized
                        quarterly invoice shows the EFAST cost for one undefined
                        unit, which TE/GE Division management refers to as a
                        “block of service.” This is insufficient detail from which to
                        determine what the service includes and whether the charges
                        are appropriate. For example, the approximately $52,000 in
                        nonitemized quarterly invoiced costs for a “block of
                        service” is a small fraction of the $9.1 million in total
                        EFAST costs for the entire Option Period V.
                        As a result of the appropriated funds and EFAST costs not
                        being sufficiently monitored, the TE/GE Division does not
                        have reasonable assurance that the nearly $33.6 million in
                        the total EFAST costs incurred under the terms of the
                        interagency agreement through June 30, 2004, are
                        commensurate with the services received. In addition, as
                        the future EFAST costs increase, it is essential for the
                        TE/GE Division to more closely monitor the funds and
                        EFAST costs. For example, in the next option period
                        (Option Period VI),21 the IRS’ projected EFAST costs are
                        nearly $10.8 million, which is a significant increase over the
                        $6.5 million incurred during Option Period II.

                        Recommendations

                        1. The Director, Business Systems Planning, should ensure
                           the necessary report format is finalized to verify the
                           timeliness of Form 5500 returns processed against the
                           EFAST performance standards.
                        Management’s Response: The Business Systems Planning
                        function will submit a Request for Information Services to
                        the Modernization and Information Technology Services


                        20
                           For example, the IRS transferred all but approximately $150,000 of
                        the $8,300,000 in Option Period V funding to the DOL before the
                        returns were processed.
                        21
                           Option Period VI runs during the period July 1, 2004, through
                        June 30, 2005.
                                                                                      Page 13
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        organization to develop the timeliness report based on
                        TE/GE Division requirements.
                        2. The Director, Employee Plans, and the Director,
                           Business Systems Planning, should work together on the
                           following actions:
                           •   Complete the effort of reviewing the terms of the
                               current interagency agreement to identify
                               opportunities to improve the TE/GE Division’s
                               oversight of the interagency agreement (for both
                               returns processing and cost verification). The
                               Director, Business Systems Planning, should follow
                               up with the DOL on any opportunities identified so
                               the IRS can receive the information or service for the
                               remainder of the current interagency agreement.
                           •   Determine whether additional controls or tools not
                               specified in the current interagency agreement or the
                               DOL EFAST contract are needed that will enable the
                               TE/GE Division to effectively monitor the
                               processing of Form 5500 returns against the
                               performance standards for timeliness, accuracy, and
                               completeness and to verify costs.
                           •   Based on the above analysis, determine what terms
                               need to be included in the future interagency
                               agreement and the DOL EFAST contract. For
                               example, the next interagency agreement should
                               specify which monitoring reports and how
                               frequently (e.g., weekly, monthly) the DOL will
                               provide to the IRS regarding the number of returns
                               processed and the timeliness of returns processing.
                               Also, the next interagency agreement should specify
                               what type of quality review information the DOL
                               will provide to the IRS regarding the accuracy and
                               completeness of returns processed. Finally, the next
                               interagency agreement should require the EFAST II
                               Project Manager to be notified when the DOL does
                               not complete any administrative task specified in the
                               interagency agreement.
                        Management’s Response: The Employee Plans and
                        Business Systems Planning functions will identify
                                                                             Page 14
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                        opportunities in the current interagency agreement and will
                        identify any additional controls, tools, and processes to
                        monitor returns processing and costs of EFAST operations,
                        under the current interagency framework and any future
                        agreement. Based on this review, the Director, Employee
                        Plans, and the Director, Business Systems Planning, will
                        determine what processes are feasible and supportable with
                        available EFAST funding.
                        3. The Director, Business Systems Planning, should
                           implement oversight controls to ensure records are
                           maintained to show the receipt and acceptance of
                           services and the allocated EFAST costs are verified to
                           ensure they are commensurate with the services
                           provided for the Form 5500 returns processing.
                        Management’s Response: The Business Systems Planning
                        function will finalize with the DOL a reporting cycle to
                        receive copies of DOL receipt and acceptance records of
                        vendor-provided services and costs (pursuant to Section 9,
                        General Provisions, of the interagency agreement, taking
                        into consideration available data and reports and oversight
                        resources available from the IRS).




                                                                             Page 15
            Oversight of the Interagency Agreement Has Improved, but Additional
               Actions Are Needed to Ensure Timely, Accurate, and Complete
                                 Form 5500 Return Information

                                                                                                 Appendix I


                        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the terms of the interagency
agreement1 between the Internal Revenue Service (IRS) and the Department of Labor (DOL)
provided reasonable assurance that the Tax Exempt and Government Entities (TE/GE) Division
received timely, accurate, and complete Annual Return/Report of Employee Benefit Plan
(Form 5500) return2 information, and whether the TE/GE Division provided adequate oversight
to ensure the terms of the interagency agreement were being met.
To achieve our objectives, we:
    I. Determined whether the terms of the interagency agreement were clearly defined and
       provided TE/GE Division management reasonable assurance that timely, accurate, and
       complete Form 5500 returns will be received.
            A. Reviewed the terms of the interagency agreement and related DOL ERISA3 Filing
               Acceptance System (EFAST) contract to determine whether:
                 1. The terms of the interagency agreement and the related DOL EFAST contract
                    clearly defined the deliverables and the timetable for when they are to be
                    received.
                 2. The provisions provided an avenue for the IRS to address any deficiencies in
                    the deliverables.
            B. Evaluated TE/GE Division and other agency reports used to monitor the
               processing of Form 5500 returns to determine whether the DOL contractor
               complied with timeliness, accuracy, and completeness performance standards.
            C. Interviewed TE/GE Division program personnel to determine the Form 5500
               return information needed by each program and whether untimely, inaccurate, and
               incomplete Form 5500 return information had adversely affected its ability to
               execute program initiatives.




1
  A written agreement entered into between two Federal Government agencies, which specifies the goods to be
furnished or tasks to be accomplished by one agency in support of the other agency.
2
  Plan administrators and sponsors of employee benefit plans are required to submit a Form 5500.
3
  The ERISA is the Employee Retirement Security Income Act of 1974, Pub. L. No. 93-406, 88 Stat. 829 (codified
as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
                                                                                                       Page 16
             Oversight of the Interagency Agreement Has Improved, but Additional
                Actions Are Needed to Ensure Timely, Accurate, and Complete
                                  Form 5500 Return Information

             D. Determined whether the terms of the interagency agreement were sufficient to
                provide the TE/GE Division with timely, accurate, and complete Form 5500
                return information needed to meet its program initiatives.
    II. Determined whether TE/GE Division controls used to monitor the interagency agreement
        were adequate to ensure the terms of the agreement were being met, problems were
        surfaced and elevated when the terms were not met, and reimbursements reflected the
        services received.
             A. Interviewed the TE/GE Division Computer Specialist responsible for processing
                the weekly EFAST transactional tapes4 and determined whether the controls were
                adequate to ensure Form 5500 return information was properly processed for
                posting to the Employee Plans Master File.5
             B. Determined whether systemic reports used by the TE/GE Division adequately
                measure the timeliness, accuracy, and completeness of Form 5500 return
                information received each week.
             C. Interviewed TE/GE Division personnel responsible for oversight to determine
                whether controls were adequate to ensure problems were properly surfaced and
                elevated when the terms of the interagency agreement were not met.
             D. Reviewed TE/GE Division and IRS procedures to determine whether controls
                used to monitor the funding and reimbursements under this interagency agreement
                were adequate to ensure submitted documentation supports all charges, the
                compensation was commensurate with the services received, and needed
                adjustments were properly and timely resolved.




4
  The DOL contractor provides the IRS EFAST transactional tapes that contain data from the Form 5500 series
returns processed for that week.
5
  The Employee Plans Master File is a database that maintains account information for employee plans.




                                                                                                        Page 17
          Oversight of the Interagency Agreement Has Improved, but Additional
             Actions Are Needed to Ensure Timely, Accurate, and Complete
                               Form 5500 Return Information

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
Karen J. Stafford, Senior Auditor
Carol A. Rowland, Auditor




                                                                                      Page 18
          Oversight of the Interagency Agreement Has Improved, but Additional
             Actions Are Needed to Ensure Timely, Accurate, and Complete
                               Form 5500 Return Information

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison:
       Director, Communications and Liaison, Tax Exempt and Government Entities
       Division SE:T:CL




                                                                                  Page 19
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information

                                                               Appendix IV


         Management’s Response to the Draft Report




                                                                      Page 20
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information




                                                                      Page 21
Oversight of the Interagency Agreement Has Improved, but Additional
   Actions Are Needed to Ensure Timely, Accurate, and Complete
                     Form 5500 Return Information




                                                                      Page 22
